<html>
<title> - GLOBAL WARMING EFFECTS ON EXTREME WEATHER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
               GLOBAL WARMING EFFECTS ON EXTREME WEATHER

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2008

                               __________

                           Serial No. 110-43


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-525                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>  


                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     6
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................     7
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     8
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    35
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    35
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, prepared statement..........................    37

                               Witnesses

Dr. Jay S. Golden, Director, National Center of Excellence, SMART 
  Innovations for Urban Climate & Energy, Global Institute of 
  Sustainability, Arizona State University.......................    38
    Prepared Statement...........................................    41
Dan Keppen, Executive Director, Family Farm Alliance.............    53
    Prepared Statement...........................................    56
    Answers to submitted questions...............................   127
Heather Cooley, Senior Research Associate Pacific Institute, 
  Water and Sustainability Program...............................    69
    Prepared Statement...........................................    72
    Answers to submitted questions...............................   149
Angela Licata, Deputy Commissioner, New York City Bureau of 
  Environmental Planning and Analysis............................    87
    Prepared Statement...........................................    90
    Answers to submitted questions...............................   156
Dr. Jimmy O. Adegoke, Associate Professor University of Missouri, 
  Kansas City....................................................    95
    Prepared Statement...........................................    98

                          Submitted Materials

Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, an article in the periodical, Water 
  Resources Research, titled ``Trends and multidecadal 
  oscillations in rainfall extremes, based on a more than 100-
  year time series of 10 min rainfall intensities at Uccle, 
  Belgium.''.....................................................     9
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, an article in the periodical, Australia 
  Meteorological Magazine, titled ``Southeast Australian 
  thunderstorms: are they increasing in frequency?''.............    24


               GLOBAL WARMING EFFECTS ON EXTREME WEATHER

                              ----------                              


                        THURSDAY, JULY 10, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:32 p.m., in Room 
210, Cannon House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Cleaver, Hall, McNerney, Sensenbrenner, Shadegg, Walden, and 
Blackburn.
    Staff present: Ana Unruh Cohen and Stephanie Herring.
    The Chairman. Welcome. Welcome to all of our guests here 
today at the Select Committee on Energy Independence and Global 
Warming and our hearing on ``Global Warming Effects on Extreme 
Weather.'' This hearing is called to order.
    Global warming is a tale of extremes. It is not enough 
water; it is too much water. It is Californians battling to 
protect their homes from drought-filled wildfires; it is 
Midwest communities sandbagging levees to hold back the 
floodwaters. It is public health officials protecting the 
elderly from dangerous heat waves; it is water utilities trying 
to provide drinking water for a growing population. It is 
farmers trying to cope with not enough water or too much water.
    Certainly floods, droughts and heat waves have always 
occurred. But by loading up the atmosphere with global warming 
pollution we are loading up Mother Nature's dice for more 
extreme weather.
    As global warming pollution increases, we are rewriting the 
book on the planet's weather and climate. In the latest eye-
opening reports from the United States Climate Change Science 
Program, scientists are predicting increases in heat waves, 
extreme rain and drought. And if we do nothing to change the 
course of these events, we may not like the way this story 
ends.
    Thankfully, this story is not finished. We can still choose 
how it ends. We must take action now to protect the most 
vulnerable amongst us from these extreme weather events. And 
there are solutions.
    Today we will hear from a panel of experts who understand 
the extreme weather challenges our Nation will face but are 
also actively working toward solutions to these challenges. 
Their testimony today will guide us toward a path of increasing 
our resilience to extreme weather.
    But we cannot simply treat the symptoms and fail to address 
the underlying sickness. As we increase our Nation's resilience 
to extreme weather, we must also dramatically reduce our global 
warming pollution.
    Even with the best preparation, we have too many examples 
that point to our limited ability to cope with extreme weather. 
We need to look no further than the recurring annual death toll 
from heat waves, or to the wildfires that burn millions of 
acres every year in the West, or to the cities that struggle to 
provide water for their growing populations, for their 
agriculture or for their hydroelectric power production. At the 
same time, extreme precipitation has caused the current 
devastation in the Midwest.
    Perhaps no weather disaster highlights or weakness to 
climate challenges than our inadequate response to Hurricane 
Katrina, which still haunts us several years later. Today we 
have several students in the room who have seen the devastation 
of extreme weather and our Nation's failure to cope with this 
devastation firsthand. These participants in the Southeast 
Climate Witness Program were all displaced by Hurricane Katrina 
and are now studying the vulnerability of their regions to 
future storms and climate change.
    We thank them for their work and for coming to this hearing 
today. They illustrate that climate change is not just an 
environmental or economic issue, but it has impacts on real 
people and their communities.
    Global warming will push weather outside the range of what 
we used to know as normal. This also means that old methods of 
water protection will no longer be sufficient to meet the 
climate challenges for the future. We must protect society's 
most vulnerable people from the impacts we can no longer avoid, 
while reducing global warming pollution to avoid a climate 
crisis. It is time for this Congress to write climate 
legislation that will ensure that the next chapter of our story 
is one that protects people and the planet.
    That completes the opening statement of the Chair, and now 
we turn and recognize the ranking member of the select 
committee, the gentleman from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T2525A.001
    
    [GRAPHIC] [TIFF OMITTED] T2525A.002
    
    Mr. Sensenbrenner. Well, thanks very much, Mr. Chairman.
    I heard the imperative of my distinguished chairman from 
Massachusetts that we have to write this legislation. As I 
recall reading his press releases and that of the majority 
party, that was supposed to be passed by July 4th of last year, 
and we still don't have anything on the calendar.
    All that said, severe weather has imparted humanity since 
our earliest memories. Just ask Noah. Floods, droughts, 
hurricanes, tornados and other natural disasters are something 
we humans have been learning to adapt to throughout time.
    Last month I saw firsthand the effects of severe weather. 
Wisconsin was among the States hard hit by floods that wreaked 
havoc through much of the Midwest. Thirty Wisconsin counties 
were declared disaster areas, including all five in my 
district. The county of Waukesha suffered $90 million in 
damages, and many people were homeless because of the flooding.
    Wisconsin has seen many floods, and they often come with 
summer rains. For better or for worse, it is part of my State's 
natural meteorological cycle. And while flood waters can't 
always be stopped, there are ways that people can adapt to 
these cycles and mitigate the damage and harm caused by them. 
Through technology, planning and management, there are things 
we can do to adapt to weather extremes.
    And if the scientific forecasts are correct, we will have 
to adapt. Projections show that no cut in greenhouse gasses, no 
matter how steep, can stop some warming over the next decade. 
That is why I believe adaptation should be a high priority in 
confronting climate change.
    While Wisconsin was recently overflowing in water, other 
parts of the country had precious little. And management of 
these resources will become more important if the temperature 
continues to rise.
    One of our witnesses today, Dan Keppen of the Family Farm 
Alliance, says farmers in the West are already preparing to 
adapt to a warmer climate. His testimony will also point out 
the need for a balance of both water conservation and supply 
enhancement, a streamlined regulatory process that helps the 
development of new infrastructure, and a prioritization of 
research needs. I agree and welcome him and all of the 
witnesses here today.
    In discussing priorities, Mr. Keppen pointed out that in 
California some have projected it will take 2.5 trillion 
gallons, or 2,500 billion gallons, of water to produce that 
State's goal of a billion gallons of ethanol. Here is another 
reason to oppose this wasteful fuel subsidy and the mandates 
which were quadrupled in last year's energy bill.
    These mandates and subsidies are already driving up the 
cost of food and doing nothing to drive down the cost of 
gasoline. This is a waste of water, and we are going to be 
paying for this micromanagement of this part of our economy for 
years to come if we don't wake up and see the problems that it 
causes.
    Adapting to climate change in severe weather will require 
balance, coordination and prioritization. Through these methods 
we can sometimes help prevent or often worsen the sting of 
these weather events. But sometimes there is nothing we can do 
but to prepare, and then sometimes even that is not enough, as 
the people of my State learned that last month.
    I yield back the balance of my time.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Just a couple comments.
    You know, I come from Washington State. We got a little 
rain up in Washington State. And people don't think Washington 
State is, sort of, an epicenter of extreme events. We don't 
have many tornados or hurricanes. But, last year, we had a rain 
event that, for the first time in 135 years, closed Mount 
Rainier National Park and literally destroyed a lot of the 
places I had grown up with, really, really beautiful places.
    I went hiking at a place called Sourdough Mountain last 
summer, and right in the middle of coming down this mountain is 
this huge gash about 60 feet deep. It looks like somebody took 
a giant knife and just cut a big gash down this mountain where 
this little, teeny, tiny creek had absolutely gone insane in 
this incredible rain event.
    And that kind of rain event is completely consistent with 
more frequent rain events of more intense duration that we 
expect to see in the future. No one can say specifically that 
that rain event was associated with global warming, the science 
does not allow that, but it is something we expect.
    And the reason I mention that is that, when people talk 
about these events, that mountain, Sourdough Mountain, had been 
there for a long, long time. There weren't gashes like that on 
that mountain, at least during my lifetime. And I just mention 
it because this is something that hits places even with mild 
weather, like the State of Washington, which has the mildest, 
dampest, grayest environment in the country.
    The second thing I want to say is that, when we think of 
extreme weather events, we are thinking of extreme in the human 
sense, but there are extreme weather events that can cause 
enormous differences in the world that are just, like, a half a 
degree.
    The very small changes of just a few degrees in the Arctic 
are totally changing the entire ecosystem of the Arctic. The 
Arctic ice cap is predicted to be gone in toto by late summer 
within the next several decades. And there is some indication 
that this year could see an 80 percent or plus reduction of the 
Arctic summer ice cap this year. And there was a 70 or 80 
percent reduction last year, which shocked the scientific 
community.
    The point I want to make is that relatively small--we 
wouldn't think of a 3- or 4-degrees Farenheit change as an 
extreme weather event, but in the context of changing whole 
ecosystems, that is extreme. And I think we have some work to 
do.
    Thanks.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Arizona, Mr. 
Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman, for holding this 
hearing.
    I would like to begin by welcoming Dr. Jay Golden of my 
home State of Arizona to the committee. Dr. Golden is working 
on a number of exciting projects at Arizona State University 
dealing with innovative renewable energy-generating 
technologies and energy-reducing materials and surface 
treatments, among other things. I look forward to the testimony 
of Dr. Golden, as well as to that of the other members.
    Examining the effects of a warming climate, regardless of 
what is ultimately determined to be the cause of that warming, 
is important to our country and very important to my State of 
Arizona and to my city of Phoenix, which sits in a very warm 
portion of the Nation and is affected and I think is a great 
example of a heat island. I think it is critically important 
for us at both the local, State and national level to identify 
how these events are brought about and how to handle the 
impacts of these weather-related phenomena.
    As a young boy growing up in Arizona, I can remember the 
summer weather which would always bring storms to the valley 
from the southeast. It was called the monsoon season, and they 
would bring huge dust storms north. And, in those days, the 
storms would move all the way through the city of Phoenix and 
pass on to the northwest. This is the exact opposite of the 
weather pattern we have in the wintertime, when our storms 
would come from the northwest and move to the southeast.
    Interestingly, over my lifetime, as Phoenix has become a 
much bigger and bigger city, with miles and miles, square mile 
after square mile of concrete and asphalt and tall concrete and 
glass buildings, I believe we have seen a tremendous impact of 
what I would call the heat island effect. And now almost none 
of those storms make their way all the way through the valley 
and emerge on the other side. They tend to hit the valley and 
go out around it.
    I am personally fascinated at how much modern building 
materials affect that urban environment and can affect these 
issues. And I think it is very important for us to know how to 
adapt various building materials to accommodate that, maybe not 
to have the heat island effect be as extreme, and also various 
insulating materials. We all know that, for a long time in this 
country, landlords would build large commercial buildings 
without properly insulating them or thinking about their energy 
footprint, recognizing they were going to pass on the bill for 
the operation of that building to somebody else.
    So I think this is important. And while we cannot play God 
and control the weather, we can certainly adapt to it, as we 
have for hundreds of thousands of years. We need to focus our 
efforts on using our available resources as efficiently and as 
effectively as possible. And for that reason, Mr. Chairman, I 
thank you for holding this hearing.
    And I yield back the balance of my time.
    The Chairman. Gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Solis.
    Ms. Solis. Thank you, Mr. Chairman, for having this 
hearing.
    Communities across California, as you know, are really 
feeling the climate change. In fact, right now, we are 
experiencing well over 1,700 fires that have been caused in 
California either by lightning or by human activity. What we 
need to look at, I believe, is that we, as humans, have created 
a lot of our own problems and we, as humans, have to then 
create solutions to those problems. So I am hoping that we will 
hear from our witnesses today that they can help us address 
this issue.
    I am very concerned because even in a community like Long 
Beach, which is not too far away from where I live, they are 
expecting to see that there will be a big dip in their water 
tables there, providing millions of water for individuals, But 
that is slowly dipping to almost 30 percent. So these are 
dramatic events that are taking place in southern California.
    Last year at this time, we had severe fires, fire storms. 
We are not even in that period right now in California where 
the Santa Ana winds are whipping up. That is going to happen 
later on, after August and September. And we know that we are 
really overutilizing our resources, and we have to attend to 
these very, very important issues.
    So I yield back the balance of my time and look forward to 
hearing from our witnesses.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentlelady from Tennessee, who was 
here first.
    Mrs. Blackburn. Thank you. I appreciate that, as my 
colleague and I both arrived about the same time. And, Mr. 
Chairman, I thank you for the hearing.
    And I want to welcome our witnesses and thank them for 
coming before us to talk about extreme weather and global 
warming. And everyone agrees that extreme precipitation events 
are on the rise, but the question for many of us is, is this a 
trend or is it just natural, a natural occurrence?
    And, Mr. Chairman, I have two articles that were published 
in Water Resources Research and the Australian Meteorological 
Magazine that shed some light on the issue. And I have used 
them in my preparation for today, and I would like to submit 
those to the record.
    The Chairman. Without objection, they will be included.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2525A.003
    
    [GRAPHIC] [TIFF OMITTED] T2525A.004
    
    [GRAPHIC] [TIFF OMITTED] T2525A.005
    
    [GRAPHIC] [TIFF OMITTED] T2525A.006
    
    [GRAPHIC] [TIFF OMITTED] T2525A.007
    
    [GRAPHIC] [TIFF OMITTED] T2525A.008
    
    [GRAPHIC] [TIFF OMITTED] T2525A.009
    
    [GRAPHIC] [TIFF OMITTED] T2525A.010
    
    [GRAPHIC] [TIFF OMITTED] T2525A.011
    
    [GRAPHIC] [TIFF OMITTED] T2525A.012
    
    [GRAPHIC] [TIFF OMITTED] T2525A.013
    
    [GRAPHIC] [TIFF OMITTED] T2525A.014
    
    [GRAPHIC] [TIFF OMITTED] T2525A.015
    
    [GRAPHIC] [TIFF OMITTED] T2525A.016
    
    [GRAPHIC] [TIFF OMITTED] T2525A.017
    
    [GRAPHIC] [TIFF OMITTED] T2525A.018
    
    [GRAPHIC] [TIFF OMITTED] T2525A.019
    
    [GRAPHIC] [TIFF OMITTED] T2525A.020
    
    [GRAPHIC] [TIFF OMITTED] T2525A.021
    
    [GRAPHIC] [TIFF OMITTED] T2525A.022
    
    [GRAPHIC] [TIFF OMITTED] T2525A.023
    
    [GRAPHIC] [TIFF OMITTED] T2525A.024
    
    [GRAPHIC] [TIFF OMITTED] T2525A.025
    
    [GRAPHIC] [TIFF OMITTED] T2525A.026
    
    [GRAPHIC] [TIFF OMITTED] T2525A.027
    
    [GRAPHIC] [TIFF OMITTED] T2525A.028
    
    Mrs. Blackburn. I thank you, Mr. Chairman.
    These papers found that the intensity levels were high in 
some years and low in others and a significant increase in the 
number of thunder days, but they concluded that there was 
nothing unusual about the recent trends. And I look forward to 
hearing from you all on these. The trends could not be 
attributed to global warming, and most increases weren't due to 
climate change. Instead, the changes actually stemmed from new 
observational practices that caused artificial trends in 
climate data.
    And we also have some research on the Tree-Ring from their 
international conference. And we are looking forward to 
covering that with you and hearing from you on these issues 
again.
    We want to make certain that we have accurate data, that we 
have accurate models, and that we are making the appropriate 
decisions as we look at the issue. And I thank you all for your 
time and your preparation.
    I yield back.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    This hearing is timely, and it is important. I am from 
northern California, north of my colleague from southern 
California. And we are experiencing drought, heat, and 
excessive fires, massive fires. People who live in the district 
are breathing smoke in 110-degree weather. So there is a lot of 
concern about the future, what that means.
    This sort of event is consistent with what I believe global 
warming will bring California, is deserts claiming territory 
farther and farther north. How is that going to manifest? It is 
going to manifest by fires, and it is going to manifest by heat 
and drought. So I am concerned, and I want to see that we take 
the right steps.
    And part of that is understanding exactly what the experts 
believe is in store for us, so that we can not only prepare, we 
can mitigate, we can adapt, and we make the right decisions in 
a bipartisan way. So I look forward to your testimony. Thank 
you for coming today.
    And I yield back.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I want to join in here in terms of what climate change may 
mean for those of us from the West. And I think my colleagues 
from California spoke of the fires that they are unfortunately 
experiencing. And Oregon usually follows California in the fire 
wave of the season.
    And I think the two things that come to mind are, first of 
all, we know from research data and testimony from the Forest 
Service that our forests are going to be really impacted. If it 
gets hotter and drier and more drought, as you all have talked 
about, then you are going to have more bug infestation, disease 
and forest fires.
    And our forest fire officials have come to me and--both 
firefighting officials and forest supervisors--have said, 
``Give us the authority you gave us in the Healthy Forest 
Restoration Act,'' which has worked well around our wildland 
urban interfaces. Let us do that out in the condition class 2 
and 3 lands that are most out of whack with balance and nature, 
so we can get ahead of this a bit, get those forests thinned, 
so that they can be more adaptive to the change in climate and 
be able to exist the wildfire that we know will come, because 
it will be thinned out, you won't have the ladder fuels, and 
therefore fire will act like it used to act before we 
suppressed fire.
    Secondly, the issue that I think that we all in the West, 
especially the arid West, need to be cognizant of is that if it 
is going to be drier, then we need to look at how we manage 
water and especially how we store water. Because if the snow 
packs do recede--although, this year, we seem to have had an 
abundance of snow, which was nice, especially for those of us 
who are skiers--but if we are going to see a reduction in snow 
pack, then we need to focus on how you do off-stream storage, 
how you do additional storage of water, and how we allocate 
that in an appropriate way, how we best manage our water.
    We are going to get some great testimony, I think, today 
from Dan Keppen, who I will introduce later, on this topic and 
on others.
    So I think there are things that Congress could do to 
change the law that would help on water management, storage, 
forest health and survivability of our forest, reducing 
greenhouse gas emissions, and reducing the threat of fire.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    [The prepared statement of Mr. Cleaver follows:]
    [GRAPHIC] [TIFF OMITTED] T2525A.029
    
    The Chair will now recognize the gentleman from Arizona for 
the purposes of introducing our first witness.
    Mr. Shadegg. Thank you, Mr. Chairman.
    We are very pleased to have in the Maricopa County area in 
Phoenix, Arizona, Arizona State University, a recognized 
excellence center in higher education. And I have relied on 
them many times this year for expertise and advice on issues 
confronting the Congress.
    I am pleased to welcome, as I mentioned earlier today, Dr. 
Jay S. Golden. Dr. Golden has a wide background, not just from 
academia. He has served as an environmental crimes detective. 
He served as regional operations vice president for a Fortune 
500 company. He established his own multi-State environmental 
and engineering firm, and then returned and received his Ph.D. 
in engineering from the University of Cambridge and a master's 
degree in environmental engineering and sustainable development 
from the Cambridge-MIT Institute.
    He currently serves as an assistant professor in the School 
of Sustainability, an affiliate of the Civil and Environmental 
Engineering Department at Arizona State University. He founded 
and serves as the director of the National Center of Excellence 
on SMART Innovations for Urban Climate and Energy.
    His research is focused on the climate-energy nexus, 
including quantifying and developing mitigation strategies that 
address the resulting environmental, human health, energy and 
economic impacts.
    He was appointed to the United Nations Life Cycle 
Management Task Force. And, finally, he directs the 
Sustainability Energy Fellowship, which educates some of our 
most exceptional students in environmental and energy and 
sustainability issues.
    Dr. Golden, we welcome you here to the committee.

   STATEMENT OF JAY S. GOLDEN, DIRECTOR, NATIONAL CENTER OF 
  EXCELLENCE, SMART INNOVATIONS FOR URBAN CLIMATE AND ENERGY, 
  GLOBAL INSTITUTE OF SUSTAINABILITY, ARIZONA STATE UNIVERSITY

    Mr. Golden. Congressman Shadegg, I thank you for that 
introduction.
    Mr. Chairman, Congressman Sensenbrenner and other members 
of the committee, thank you for this opportunity to address you 
on these important issues.
    The national center which I direct supports local and 
regional agencies to develop strategies to reduce vulnerability 
and risk associated with extreme weather events. We focus on 
heat waves, the urban heat island effect, and the relationship 
to reliable electricity delivery.
    First allow me to present some driving factors behind our 
research and why I believe greater Federal action needs to be 
taken to support State, regional and local governments as they 
seek to protect our national security.
    Factor number one is more people in the United States die 
from heat-related events than all other weather-related 
phenomena combined. That is, more Americans die each year from 
extreme heat than lightning, hurricanes, tornadoes and floods 
combined.
    Factor number two, global climate change, which will 
increase human health vulnerability as more frequent and 
extreme weather events, including heat waves, impact our 
country. In their 2008 report, the U.S. Climate Change Science 
Program concluded that abnormally hot days and nights and heat 
waves are very likely to be more frequent. Additionally, since 
the record hot year of 1998, 6 of the last 10 years have had 
annual average temperatures that fall in the hottest 10 percent 
of all years recorded in history for the United States.
    Factor number three is the urban heat island effect. Over 
half of our planet's population now lives in cities, up 30 
percent from 50 years ago. In 2000, more than 8 out of 10 
Americans lived in metropolitan areas. With increased 
population comes rapid change in our land cover and an 
increased use of engineered materials for our buildings. These 
retain our heat in our cities, contributing to the urban heat 
island effect.
    As an example of the urban heat island effect, the average 
annual temperatures in the combined urban-rural areas of 
Phoenix, Arizona, have increased 3.1 degrees Fahrenheit during 
the 20th century. However, mean annual temperatures in just the 
urban portions of our region have increased 7.6 degrees 
Fahrenheit.
    Factor four, a vulnerable electrical system. In the United 
States, parts of our electrical delivery capability are at 
increasing risk of failure. Urban heat islands and heat waves 
are almost certain to cause increased demand. By 2025, U.S. 
electricity consumption is projected to grow by 50 percent over 
2003 levels. To meet this rising demand, an equivalent to 
almost 950 new power plants of 300 megawatts each will be 
needed.
    The primary means of adaptation to climate change is 
mechanical cooling, air-conditioning. The greater the demand, 
the more fragile our system becomes, as older units fail due to 
mechanical breakdowns and its heavily laden power lines stretch 
and sag from heat.
    My recommendations: Action number one, develop a stronger 
and more integrated urban research focus. Because no one 
mission agency in the Federal Government has responsibility for 
all the components of a city, no government body is funding 
research that looks at how all the parts fit together. Who will 
synthesize all this information to a model or models that 
incorporate as much data as possible? Fundamentally, Congress 
should direct agencies and the NRC to look for ways to create 
synergistic urban research programs.
    Number two, a dedicated urban satellite system. Remote 
sensing from space can and needs to play a vital role in 
protecting human health and the environment from climate 
change, urban heat islands, and failures of electrical power 
systems. Scientists continue to develop and refine very complex 
predictive models to gain a greater understanding of urban and 
global climate change. However, the current dedicated satellite 
system that provides the basis for our ability to prevent human 
harmful impacts is in jeopardy of phase-out, abandonment and/or 
failure.
    Action item number three, streamline and enhance 
electricity interruption reporting requirements. We lack an 
effective and consistent national-level program that examines 
the interactions of the built environment, climate and safe 
electricity delivery for our cities, let alone an effective way 
to track outages. At best, our current system can be considered 
confusing and less than adequate. We need to increase our 
understanding of electricity outages of different scales. In 
short, we need a new, comprehensive and rational power outage 
reporting system.
    Finally, I strongly urge this committee and Congress to 
support the development of a report to all appropriate 
committees of Congress on the issues of heat waves, urban heat 
islands, and human health vulnerability.
    The proactive effort will provide Congress greater insights 
and multi-stakeholder recommendations on three primary topics: 
identify existing and emerging needs of local and regional 
governments to prepare and respond to human health 
vulnerability resulting from heat waves, urban heat island 
effect, climate change, and power outages; number two, examine 
the roles and capabilities of Federal agencies to support local 
and regional governments and suggest programs to improve these 
capabilities; finally, provide recommendations for future 
research initiatives that can reduce vulnerability and improve 
our national security.
    I strongly caution that the timing of such an effort must 
be immediate. By waiting and not addressing these issues in the 
present day, we risk our population and our national security 
today and into the future.
    Thank you.
    [The statement of Mr. Golden follows:] 

    [GRAPHIC] [TIFF OMITTED] T2525A.030
    
    [GRAPHIC] [TIFF OMITTED] T2525A.031
    
    [GRAPHIC] [TIFF OMITTED] T2525A.032
    
    [GRAPHIC] [TIFF OMITTED] T2525A.033
    
    [GRAPHIC] [TIFF OMITTED] T2525A.034
    
    [GRAPHIC] [TIFF OMITTED] T2525A.035
    
    [GRAPHIC] [TIFF OMITTED] T2525A.036
    
    [GRAPHIC] [TIFF OMITTED] T2525A.037
    
    [GRAPHIC] [TIFF OMITTED] T2525A.038
    
    [GRAPHIC] [TIFF OMITTED] T2525A.039
    
    [GRAPHIC] [TIFF OMITTED] T2525A.040
    
    [GRAPHIC] [TIFF OMITTED] T2525A.041
    
    The Chairman. Thank you, Dr. Golden.
    Now I am going to recognize Congresesman Walden.
    Mr. Walden. Thank you for that courtesy, Mr. Chairman.
    And I want to welcome Dan Keppen, who is a good friend and 
one of the West's finest advocates for family farmers and 
ranchers.
    He is a fellow Oregonian. Dan resides in Klamath County, 
which is in the southern part of the district I have the honor 
of representing. And Dan has, for the last 3 years, served as 
the executive director of the Family Farm Alliance, which is a 
grassroots farmer advocacy group that aims to ensure the 
availability of reliable and affordable water for irrigation in 
the West.
    Before joining the Family Farm Alliance in 2005, Dan served 
3 years as the executive director of the Klamath Water Users 
Association, where I worked closely with him on one of the 
West's most prominent and challenging water management issues, 
the Klamath Reclamation Project.
    And if anyone can speak with authority about the importance 
of water in the West for farms and families and communities, it 
is Dan Keppen. After all, few people were more involved in 
helping find solutions in the 2001 water cutoff in the Klamath 
Basin than Dan. He is a real expert on water and farm issues, 
knows full well the impacts that a change in the weather can 
have on those who make their living from the land.
    From 2000 to 2001, Dan served as the special assistant to 
the Bureau of Reclamation's Mid-Pacific regional director in 
Sacramento, where he advised and assisted with planning, 
managing, directing and coordinating a variety of reclamations 
water management activities.
    He received his master of science degree in civil 
engineering from Oregon State University and a bachelor of 
science degree from the University of Wyoming.
    It is my pleasure to welcome before the committee Dan 
Keppen. And I look forward to his testimony and that of the 
other witnesses.
    Thank you, Mr. Chairman.

   STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, FAMILY FARM 
                            ALLIANCE

    Mr. Keppen. Thank you, Mr. Walden and Chairman Markey and 
members of the select committee. I appreciate this opportunity 
to testify today.
    Again, my name is Dan Keppen. I am the executive director 
of the Family Farm Alliance. World headquarters in Klamath 
Falls, Oregon. We represent irrigators in all 17 western 
States. We are also committed to the fundamental proposition 
that western irrigated agricultural must be preserved and 
protected for a host of reasons, many of which are often 
overlooked in the context of other policy decisions.
    The topic of this oversight hearing is not only important 
to the alliance, it is also relevant to water users, farmers, 
ranchers and small communities all over the western United 
States.
    My board of directors in 2007 made climate change a 
priority issue for our organization to engage in. And last year 
we released a report entitled, ``Water Supply in a Changing 
Climate: The Perspective of Family Farmers and Rancher in the 
Irrigated West.'' I would like to respectfully submit this to 
be included in the hearing record today.
    The Chairman. Without objection.
    Mr. Keppen. Thank you.
    Our report shows that climate change could further strain 
fresh water supplies in the American West. It provides several 
examples of studies that focus on specific regions or 
watersheds in the West, and they indicate that, for the most 
part, from the Colorado River Basin to the Pacific Northwest to 
the Central Valley of California, climate change has and will 
continue to impact water supplies and the users dependent on 
those supplies in the future.
    The Western Governors' Association has developed findings 
that are consistent with our examples of climate impact to 
water supplies across the West, as reported in our document. In 
general, Western Governors predicts four general predictions: 
smaller snow packs and earlier snowmelt; more rain than snow; 
extreme flood events which could be more common and become 
larger; and droughts and higher temperatures which could be 
more intense, frequent and last longer, which will obviously 
have an impact on irrigators.
    In some areas, western water supplies are already 
challenged by the demands of agriculture, urban growth and 
environmental enhancement. Global climate change, we are told, 
will further reduce those supplies.
    So how will we meet the ever-increasing demand for water in 
the West in an era when there will be an ever-decreasing 
supply? We recommend an adaptive approach, as well, to dealing 
with the uncertainties of climate change. Even if current 
efforts to mitigate for greenhouse gas emissions are 
successful, the climate is still predicted to warm considerably 
over the next several decades, which will have impacts on water 
supplies and water users.
    Improved conservation and efficiency by urban and 
agricultural water users is certainly part of the solution, but 
only one part. We must begin to implement a balanced suite of 
both conservation and supply-enhancement actions. Conservation 
alone will not supply enough water for the tens of millions of 
existing and new residents expected to live in western cities 
during the coming decades. We believe it is possible to meet 
the needs of cities and the environment in a changing climate 
without sacrificing western irrigated agriculture.
    It is time to start developing and implementing the water 
infrastructure needed to cope with the changing climate, meet 
the needs of a growing population, protect our environment, and 
support a healthy agricultural base in the West. We need to 
streamline the often slow and cumbersome Federal regulatory 
process to improve, modernize and expand our water 
infrastructure. Finally, we must prioritize our research needs 
to accomplish useful studies that inform water managers and 
their users of key actions that must be accomplished to deal 
with the changing climate.
    My boss, president of the board for the alliance, is 
Patrick O'Toole, a rancher from Wyoming. He testified before 
the Senate Energy and Natural Resources Committee last year on 
S. 2156, the Secure Water Act, sponsored by Senators Bingaman 
and Domenici. This bill includes water science initiatives, 
water-efficiency programs, and additional actions that will 
help us adapt to the water-related impacts of global climate 
change.
    These provisions closely matched similar recommendations 
made in the report that we developed. While there is not 
currently a companion bill introduced in the House, we would 
encourage the House to take up a similar bill to help speed its 
enactment into law.
    We believe change of climate will further strain freshwater 
supplies in the American West. We must begin to plan for that 
now and not wait until we are forced to make decisions during a 
crisis. Now is the time to enact sound policies and encourage 
continued investment in irrigated agriculture.
    Reallocating farmers' water supplies will diminish domestic 
food production at exactly the same time global warming is 
predicted to severely adversely impact food production 
worldwide. Relying on agriculture to be a shock-absorber to 
soften or eliminate the impending water shortage is not 
planning. It is an easy fix that carries with it enormous 
consequences to our society and our Nation.
    While much of the debate surrounding what to do about 
climate change is centered on mitigation for greenhouse gas 
emissions, we believe that climate change policies for 
irrigated agriculture in the future need to address adaptive 
approaches that prepare for the worst-case scenarios predicted 
for western watersheds.
    Thank you for this opportunity to appear before the 
committee again, and I would happy to answer any questions you 
might have.
    [The statement of Mr. Keppen follows:]

    [GRAPHIC] [TIFF OMITTED] T2525A.042
    
    [GRAPHIC] [TIFF OMITTED] T2525A.043
    
    [GRAPHIC] [TIFF OMITTED] T2525A.044
    
    [GRAPHIC] [TIFF OMITTED] T2525A.045
    
    [GRAPHIC] [TIFF OMITTED] T2525A.046
    
    [GRAPHIC] [TIFF OMITTED] T2525A.047
    
    [GRAPHIC] [TIFF OMITTED] T2525A.048
    
    [GRAPHIC] [TIFF OMITTED] T2525A.049
    
    [GRAPHIC] [TIFF OMITTED] T2525A.050
    
    [GRAPHIC] [TIFF OMITTED] T2525A.051
    
    [GRAPHIC] [TIFF OMITTED] T2525A.052
    
    [GRAPHIC] [TIFF OMITTED] T2525A.053
    
    [GRAPHIC] [TIFF OMITTED] T2525A.054
    
    Ms. Solis [presiding]. Thank you.
    Our next witness is Heather Cooley.
    Heather Cooley is a senior research associate with the 
Pacific Institute Water and Sustainability Program. At the 
institute, her research involves water privatization, 
California water issues and environmental justice, and climate 
change.
    Prior to the institute, she worked at the Lawrence Berkeley 
Laboratory, where she studied climate and land-use change in 
carbon cycling. She has published a book on freshwater 
resources, ranging on issues from floods and droughts to 
impacts on businesses and ecosystems, and has testified before 
the State of California regarding management of freshwater 
resources.
    She holds a bachelor of science in molecular environmental 
biology, with an emphasis in ecology, from UC-Berkley and an MS 
in energy and resources from UC-Berkley.
    Welcome, and thank you for coming, Ms. Cooley.

STATEMENT OF HEATHER COOLEY, SENIOR RESEARCH ASSOCIATE, PACIFIC 
                           INSTITUTE

    Ms. Cooley. Thank you.
    Mr. Chairman and members of committee, thank you for 
inviting me to offer testimony on the growing risk to the 
Nation from extreme weather events as a result of climatic 
change. I will limit my discussion here to floods and droughts 
and how we can adapt to these changes, but my written testimony 
expands on a broader range of risks and responses.
    Floods and droughts have dominated the headlines in papers 
across the United States in recent months. Floods along the 
Mississippi River and its tributaries have devastated 
communities throughout the Midwest. Drought conditions are 
prevailing across large parts of the United States. And, in 
California, drought conditions have spawned nearly 2,000 fires 
since late June in what may turn out to be one of the worst 
fire seasons on record.
    Yet most the discussion about climate change has focused on 
average conditions. But the Nation is far more vulnerable to 
extreme events like those we are experiencing throughout the 
country today. These extreme events have the largest social, 
economic and environmental impacts. They kill and injure the 
most people, and they cause the most damage to our economy and 
environment.
    Scientists are increasingly investigating the risks of 
these extreme events. And, in short, they conclude we are 
loading the dice in favor of the increase in severe events. And 
the Nation's water resources appear to be most at risk.
    In particular, research now shows that warmer temperatures 
will intensify the hydrologic cycle, leading to greater climate 
variability and, unfortunately, an increase in the risk of both 
floods and droughts.
    The idea that both floods and droughts may increase may 
seem counterintuitive to some. But let me provide an example 
that is particularly relevant to the West to illustrate this 
point.
    In the West, snowfall and snowmelt are critical for water 
supply. The research indicates that warmer temperatures will 
raise the snow line in mountainous regions, causing more 
precipitation to fall as rain rather than snow, and thereby 
increasing the likelihood of winter floods. To make matters 
worse, these higher temperatures will lead to an earlier and 
faster snowmelt, increasing the likelihood of droughts and 
water shortages during the summer months when our farms and 
cities need water the most.
    But what can we do about these growing risks? Impacts 
associated with climate change are now unavoidable, but that 
doesn't mean we are helpless. Let me touch on a few options 
that my written testimony describes in much greater detail.
    First, smarter flood plain management. In the past, we have 
relied heavily on levees for flood protection, but these 
measures can often give a false sense of security, encouraging 
development and putting more lives and people at risk.
    The 1994 Galloway report from General Galloway and the Army 
Corps of Engineers strongly called for a new approach, one 
based on, and I quote, ``avoiding the risks to the flood plain, 
minimizing the impact of these risks when they cannot be 
avoided, mitigating the impacts of damages when they occur, and 
accomplishing the above in a manner that concurrently protects 
and enhances the natural environment.''
    Second, we must develop new alternative supplies. Recycled 
water, for example, can be used for a wide range of purposes, 
from agricultural and landscape irrigation to power plant 
cooling and groundwater recharge. Agencies throughout the West 
are beginning to pursue recycled water, but we need to 
encourage this transition.
    In addition, better groundwater management would allow us 
to restore excess surface water, including storm water, and 
groundwater aquifers during wet years for later use in dry 
years. In the past, we often looked at storm water as a 
liability and sought to get it out of our cities as quickly as 
possible. But now communities are realizing that this is an 
asset, that we can then recharge our groundwater and use it 
again when we need it.
    And, finally, water conservation and efficiency offers 
enormous potential for reducing water pressures on water supply 
and must be central to any effort to adapt to climate change.
    We have made some remarkable achievements in the past 25 
years, and as the figures on page 11 of my written testimony 
indicate, total water use in the Nation has actually declined, 
despite continued economic and population growth.
    But much more potential to improve the efficiency of water 
use remains. Work we have done at the Pacific Institute 
indicates that the urban sector could reduce its water use by a 
third at lower cost than new supply. And that is in California, 
where very already done quite a bit, but there is still a 
tremendous amount available. There is also potential for the 
agricultural sector.
    These efficiency improvements can also help us reduce the 
impacts of climate change. Capturing, treating, transporting, 
and using water require large amounts of energy. In California 
alone, an estimated 19 percent of the electricity used, 32 
percent of the natural gas and 88 million gallons of diesel 
fuel consumption are water-related. Thus, conservation and 
efficiency improvements can also save energy, thereby reducing 
our greenhouse gas emissions.
    Furthermore, a recent analysis from the California Energy 
Commission found that energy can be saved through water 
conservation at lower cost than through traditional energy-
efficiency measures.
    In closing, I would like to urge members of the committee 
to take action now. Waiting another 5 to 10 years will only 
make solving these problems more difficult and costly. 
Furthermore, all of the options I discussed--smarter flood 
plain management, better groundwater management, recycled 
water, and conservation--makes sense under today's climate 
conditions and can help reduce current pressures on our water 
system.
    Thank you.
    [The statement of Ms. Cooley follows:]

    [GRAPHIC] [TIFF OMITTED] T2525A.055
    
    [GRAPHIC] [TIFF OMITTED] T2525A.056
    
    [GRAPHIC] [TIFF OMITTED] T2525A.057
    
    [GRAPHIC] [TIFF OMITTED] T2525A.058
    
    [GRAPHIC] [TIFF OMITTED] T2525A.059
    
    [GRAPHIC] [TIFF OMITTED] T2525A.060
    
    [GRAPHIC] [TIFF OMITTED] T2525A.061
    
    [GRAPHIC] [TIFF OMITTED] T2525A.062
    
    [GRAPHIC] [TIFF OMITTED] T2525A.063
    
    [GRAPHIC] [TIFF OMITTED] T2525A.064
    
    [GRAPHIC] [TIFF OMITTED] T2525A.065
    
    [GRAPHIC] [TIFF OMITTED] T2525A.066
    
    [GRAPHIC] [TIFF OMITTED] T2525A.067
    
    [GRAPHIC] [TIFF OMITTED] T2525A.068
    
    [GRAPHIC] [TIFF OMITTED] T2525A.069
    
    Mr. Hall [presiding]. Thank you.
    Our next witness is from my home State, Ms. Angela Licata, 
who serves as deputy commissioner for the New York City 
Department of Environmental Protection and director of the 
Bureau of Environmental Planning and Analysis.
    She has worked in NYCDP for over 20 years. As deputy 
commissioner, she oversees climate change issues for the 
agency, the development of a watershed and sewershed program 
for Jamaica Bay, storm water management planning, natural 
resource planning, and sewer infrastructure planning as it 
relates to new growth stimulated by rezoning throughout the 
city.
    She is also an expert in environmental planning assessment 
and negotiates complex land-use and permitting issues.
    Ms. Licata, you are now recognized.

STATEMENT OF ANGELA LICATA, DEPUTY COMMISSIONER, NEW YORK CITY 
 BUREAU OF ENVIRONMENTAL PLANNING AND ANALYSIS, DEPARTMENT OF 
                    ENVIRONMENTAL PROTECTION

    Ms. Licata. Good afternoon, members of the committee. I am 
Angela Licata, deputy commissioner with New York City's 
Department of Environmental Protection. On behalf of 
Commissioner Emily Lloyd, thank you for the opportunity to 
speak before your committee today.
    Climate change certainly raises serious challenges to the 
future of New York City's water supply delivery, storm water 
management, and wastewater treatment system. In 2007, Mayor 
Michael Bloomberg released PlaNYC. This is a comprehensive, 
sustainable urban plan for New York City that includes 127 
initiatives to create a greener, more sustainable city.
    One of the key challenges addressed by PlaNYC is global 
climate change. In May of 2008, DEP released the first report 
of its ``Climate Change Assessment and Action Plan,'' detailing 
the extensive work that DEP has undertaken to better understand 
and plan for the potential impacts of climate change on the 
city's water and sewer systems.
    I am submitting the report to the committee for its 
consideration.
    The report outlines specific steps that DEP has taken to, 
one, refine climate change projections for the city of New 
York; two, better quantify risks to existing systems; three, 
integrate climate change data into current design for new 
projects; four, develop adaptation strategies for critical 
infrastructure.
    Adequate funding for ongoing research in the short term and 
for capital investments in infrastructure upgrades in the long 
term is crucial to our ability to adapt to a changing climate.
    Customized climate change projections performed for DEP by 
Columbia University's Center for Climate Systems Research and 
NASA's Goddard Institute for Space Studies indicates that, by 
2050, New York City and its watershed region will experience a 
3- to 5-degree Fahrenheit rise in temperature, a 2.5 to 7.5 
percent increase in precipitation, and a 6- to 12-inch rise in 
sea level. It is projected that these conditions will be even 
more pronounced by the year 2080.
    Without proper planning and extensive adaptations, this 
degree of climate change could have a significant effect on the 
city's drinking water quality and supply.
    Preliminary analysis indicates that rising temperatures 
could extend the growing season, exaggerate the frequency and 
severity of droughts, and heat waves will likely change the 
ecology of our watershed. Rising temperatures, coupled with 
heavier participation, could wash additional nutrients and 
particles into water supply reservoirs, thereby increasing 
turbidity and eutrophication levels, thus compromising the 
viability of New York City's currently unfiltered drinking 
water system.
    Increased precipitation could also overwhelm storm water 
drainage systems, wastewater treatment facilities, and sewer 
infrastructure. Rising seas, coupled with storm surges, pose a 
threat to our coastal wastewater treatment facilities.
    Recently, in fact, an observed increase in the frequency of 
severe rainfall events, which may be evidence of changing 
climate conditions, is alarming and unprecedented in the 
written record. In 2007, for example, on April 15th, 17 inches 
of rain were recorded in Upper Manhattan, the largest daily 
accumulation since 1882. On July 18th, 2007, between 3 and 5 
inches of rain were recorded at locations across the city 
within a 4-hour period. In some areas, 3 inches of rain fell in 
1 hour. And on August 8th, 2007, between 1.4 and 3.5 inches of 
rain were recorded within a 2-hour period.
    Our current storm water conveyance system is designed only 
for 1.75 inches of rainfall per hour, given that the rate of 
return from much larger storms has historically occurred very 
infrequently.
    Climate change is a complex emerging issue. The timing and 
extent of change are uncertain, and modifying large-scale 
infrastructure systems is expensive and takes time. But with 
sufficient support, we can develop and implement strategies 
that will help ensure the long-term viability of our drinking 
water and wastewater systems.
    Working in concert with PlaNYC, Mayor Bloomberg's 
comprehensive urban sustainability initiative, DEP is already 
planning for the diversification of New York City's drinking 
water supply by increasing the interconnectivity and 
flexibility of our systems. We are also developing aggressive 
conservation programs, increasing water supply protection 
measures through a robust land acquisition program within our 
watershed, and building new drinking water quality 
infrastructure.
    In another step forward, New York City DEP has also joined 
with water providers serving seven of the country's major 
metropolitan areas to form the Water Utility Climate Alliance. 
Working together, we aim to foster research aimed at advancing 
climate science and to develop more robust decision support 
frameworks. This alliance recognizes the importance of Federal 
partnerships in this endeavor.
    DEP's 10-year capital program budget is intended to fund 
infrastructure investments on a 50-year time scale.
    The Chairman [presiding]. Could you summarize, please?
    Ms. Licata. Yes.
    Integrating climate change projections with departmental 
planning will help ensure that the city's water and wastewater 
systems are more resilient and better prepared to withstand the 
volatile conditions of a changing climate.
    Once again, I thank you for the opportunity.
    [The statement of Ms. Licata follows:]

    [GRAPHIC] [TIFF OMITTED] T2525A.070
    
    [GRAPHIC] [TIFF OMITTED] T2525A.071
    
    [GRAPHIC] [TIFF OMITTED] T2525A.072
    
    [GRAPHIC] [TIFF OMITTED] T2525A.073
    
    [GRAPHIC] [TIFF OMITTED] T2525A.074
    
    The Chairman. Thank you very much.
    And Mr. Cleaver will be recognized to introduce our final 
witness.
    Mr. Cleaver. Thank you, Mr. Chairman.
    It is with great pride and pleasure that I introduce Jimmy 
Adegoke, who was an associate professor in the Department of 
Geosciences at the University of Missouri in Kansas City, UM-
KC, in the city where I reside.
    He studied the role that land surfaces play in driving 
weather and climate change. And Dr. Adegoke's research also 
looks at linkages and feedback between the processes that 
impact air quality and heat stress in changing urban 
environments.
    And as a member of the Geosciences Department, he was 
recently invited to serve on the advisory committee of remote 
sensing experts to assist the United Nations program in 
assessing various country-level projects in ecosystem and water 
management in different African countries.
    He has a BS, he has an MS in climatology, he has a Ph.D. in 
satellite climatology from Penn State, and was awarded the 
National Oceanic and Atmospheric Administration postdoctoral 
fellowship in regional climate modeling.
    We are very, very proud of him in Kansas City and pleased 
to have him present to this committee.
    The Chairman. That is great.
    Welcome, sir.

STATEMENT OF JIMMY O. ADEGOKE, ASSOCIATE PROFESSOR, UNIVERSITY 
                          OF MISSOURI

    Mr. Adegoke. I would like to thank Chairman Markey and 
Ranking Member Sensenbrenner and all the members of the select 
committee for this opportunity to appear before you and address 
the energy and environmental challenges facing our Nation, 
climate variability and climate change, in particular focusing 
on the Midwest region.
    I would like to thank Congressman Emanuel Cleaver, who is 
my representative, for his service on this important select 
committee and his guidance locally.
    The United States Midwest is one of the most agriculturally 
productive areas or regions in the world. It supports a wide 
range of agro businesses and industrial manufacturing complexes 
that are economically vital to the United States.
    This region is also susceptible to substantial interannual 
and interdecadal variations in summer climate. Frequent severe 
droughts and devastating floods are features of the extreme 
warm season climate anomalies that affect much of the central 
U.S. The drought of 1988, for instance, the flood of 1993, 
resulted in an estimated $52 billion lost in farm and property 
damage in the Midwest.
    The last two summers, 2007 and 2008, have been especially 
devastating for us for large swaths of the Midwest due to the 
back-to-back floods that have destroyed thousands of acres of 
prime farmland in several States and submerged whole 
communities. The losses sustained from just these two last 
flood events alone undoubtedly will run into tens of billions 
of dollars.
    The financial impact of the current flood is exacerbated by 
the fact that many property owners in the worst-hit areas lack 
flood insurance, because they live in areas deemed ``500-year 
flood plains,'' where mortgage banks do not require flood 
insurance. Furthermore, it has been reported that many 
communities in Wisconsin and Iowa and Missouri either dropped 
out or never even participated in the federally funded Flood 
Insurance Program for the same reason. This makes residents in 
these communities ineligible for Federal aid under the existing 
rules for the National Flood Insurance Program.
    So against this backdrop, the decision of the chairman of 
this committee to hold this hearing is both timely and highly 
commendable.
    My written testimony, which has been submitted for the 
record, contains an overview of the evidence that supports the 
view, the scientific evidence that supports the view that we 
are indeed in a regime of enhanced climate variability. We are 
already there. We are not looking for a changing climate 
anymore. We are in a regime of enhanced climate variability.
    That testimony also discusses what are the implications of 
these current and the future changes that we expect on the 
Midwest, using what I advocate as a vulnerability framework. 
And I also offer some thoughts on strategies for mitigating and 
managing those risks.
    This committee has been addressed by several of my 
colleagues at this table on what the current state is and the 
fact that evidence has accumulated to show that the climate is 
changing and will continue to change. Now, the trend in the 
U.S. follows exactly what we know from global assessments. And 
the trend in both temperature and precipitation in the Midwest, 
in particular, they reflect these same national trends with 
some regional variations.
    For example, we know that the northern Midwest has warmed 
by almost 4 degrees Fahrenheit, while the southern Midwest, 
especially in the Ohio Valley Region, has cooled by a little 
less than 1 degree Fahrenheit. Annual precipitation has 
increased by over 26 percent in some areas, with most of this 
increase coming from periods of heavy rainfall. So our climate 
has already changed in the Midwest.
    Now, the evidence available to us from climate model 
projections suggests that these trends will continue and will, 
in fact, accelerate in a warming world. Higher temperatures 
will increase the water-holding capacity of the atmosphere and 
encourage greater evaporation, resulting in conditions that 
favor increased climate variability. And with more intense 
precipitation and more droughts, we can also expect increased 
frequency and severity of heat waves and greater potential for 
reduced air quality in urban areas.
    Now, these projections are a result of----
    The Chairman. Dr. Adegoke, if you could wrap up, please. We 
will have questions.
    Mr. Adegoke. Now, these projections are the result of 
climate models. And our contention is that, while this gives us 
a direction to go forward, we need to begin to address these 
issues, in particular from a vulnerability perspective. We are 
already vulnerable, and we need to think about how specific 
sectors can be strengthened and new mitigation strategies 
developed to address our risks and vulnerabilities in these 
various sectors.
    [The statement of Mr. Adegoke follows:]

    [GRAPHIC] [TIFF OMITTED] T2525A.075
    
    [GRAPHIC] [TIFF OMITTED] T2525A.076
    
    [GRAPHIC] [TIFF OMITTED] T2525A.077
    
    [GRAPHIC] [TIFF OMITTED] T2525A.078
    
    [GRAPHIC] [TIFF OMITTED] T2525A.079
    
    [GRAPHIC] [TIFF OMITTED] T2525A.080
    
    [GRAPHIC] [TIFF OMITTED] T2525A.081
    
    [GRAPHIC] [TIFF OMITTED] T2525A.082
    
    [GRAPHIC] [TIFF OMITTED] T2525A.083
    
    [GRAPHIC] [TIFF OMITTED] T2525A.084
    
    [GRAPHIC] [TIFF OMITTED] T2525A.085
    
    [GRAPHIC] [TIFF OMITTED] T2525A.086
    
    [GRAPHIC] [TIFF OMITTED] T2525A.087
    
    [GRAPHIC] [TIFF OMITTED] T2525A.088
    
    [GRAPHIC] [TIFF OMITTED] T2525A.089
    
    The Chairman. Thank you, Dr. Adegoke. We much appreciate 
it.
    There are four roll-calls that are going to be conducted 
out on the House floor. There are 11 minutes to go before that 
roll-call. What I thought I could do is recognize the gentleman 
from Washington State for a round of questions. And then if Mr. 
Inslee would do that, recognize then Mr. Shadegg, so that we 
can have a bipartisan questioning. And then we will come back 
and continue to question.
    Mr. Inslee. Thank you.
    Mr. Keppen, I used to live in Yakima, Washington, have a 
lot of experience with the irrigation community and, I think, 
know the stresses that you are under.
    Has your group taken a look at the issue of a cap-and-trade 
system to try to actually limit the amount of warming that we 
experience and climatic change that we experience?
    Mr. Keppen. Basically our mission statement is focused 
completely on, you know, water and water issues. And so, as a 
board, we have not dealt with that.
    Personally, I am on Governor Kulongoski's Climate Change 
Integration Group in Oregon, and that is an issue that is being 
discussed there.
    I think agriculture definitely needs to be involved, from a 
personal standpoint. But, as an organization, we haven't taken 
a position.
    Mr. Inslee. Well, I would encourage you to think about that 
and become engaged in that discussion. And the reason I say 
that is that ag, I think, has probably got as much at risk as 
any other sector of our community. And knowing how fragile our 
irrigation system is in eastern Oregon and eastern Washington, 
how we are always on the edge--it could be pushed over by 
reductions in our snow pack and just dry years--we need your 
leadership and we need your engagement in this issue as a 
community.
    So I hope that your organization will think not just about 
adaptation and accepting this change, but, in fact, trying to 
slow it down. And there is a whole variety of ways to do that, 
through research of new clean energy technology, some of which 
is going to benefit ag, a cap-and-trade system.
    I just hope your organization will look at some of these 
issues and help us design an effort to slow down global warming 
as well as adapt to it.
    Mr. Keppen. Well, thanks for that input. I will pass it on 
to my board.
    Mr. Inslee. We would love to hear from you.
    And that is my only comment. Thank you very much.
    The Chairman. Great.
    The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Ms. Cooley, I want to begin with you. I strongly share your 
interest in water and in conserving water. In Arizona, we began 
a very aggressive program toward groundwater storage and 
restricting the use of groundwater but also recharging our 
water table. I guess I am interested in some innovative ideas 
from you briefly on that topic.
    But also, I recently built a home, and I very seriously 
considered a gray-water system. I didn't put it in, and I now 
regret that. I am interested in your thoughts on how widespread 
that technology is for the use. Should we be splitting 
wastewater, as it comes out of our houses, into a gray-water/
black-water dichotomy? And how soon can we do that and have it 
reduce our reliance on water?
    And then I have some questions for Dr. Golden.
    Ms. Cooley. Your first question was on groundwater banking 
and what actions we can do to encourage and incentivize that, 
is that correct?
    Mr. Shadegg. Yes.
    Ms. Cooley. There are number of things we can do.
    One of the additional benefits which I didn't talk a bit 
about was on the issue of storm water. Much of the storm water 
runoff is really what is polluting our rivers and streams. And 
so, capturing that and finding ways and developing ways in 
which we encourage and basically pursue low-impact development 
to encourage infiltration of that water can also provide not 
only a water-supply but a water-quality benefit.
    And so, in terms of actions that can be done, ensuring that 
all new development does integrate those principles I think is 
one of the first things we need to do, and also encourage that 
development doesn't occur on some of our most important 
recharge areas.
    Mr. Shadegg. In the Southwest, we have huge, sudden storms, 
and we lose all that water. And it is tragic. I don't think we 
can go on doing that.
    What about gray-water systems?
    Ms. Cooley. Gray-water systems, I always get asked about 
that. It is a very interesting topic. Some areas in some 
regions have regulations against it, and that is something that 
we need to, kind of, standardize and systemize so that there is 
some consistency, even within a given State.
    I think in new development it makes a lot of sense. 
Retrofitting existing developments can be expensive. And then 
there are other things that we could do at lower costs, such as 
taking out turf and putting in low-water-use landscapes and 
those kinds of things. There is plenty of beautiful landscape 
that is well-adapted to the desert that not only reduces water 
use, also reduces fertilizers, pesticide, and provides habitat 
for local species.
    Mr. Shadegg. Yeah, but some of us, though, believe that all 
that green grass reduces the temperature where we live. I 
happen to live where there is a lot of green grass, and I can 
show you the drop in the thermometer in my car as I drive into 
my neighborhood. So I would rather clean my gray water and 
water my grass, if I could. But I would want to clean my gray 
water.
    Dr. Golden, I would like to ask you two questions in the 
limited time I have. One is, I am interested in your testimony 
on the point that the average temperature, I believe you 
testified, in the Phoenix area had come down 3.1 degrees, but 
in the urban portion of the metropolitan area, or of the 
county--I am sorry, it had gone up 3.1 degrees, but in the 
urban area it had gone up by 7.6 degrees.
    Can you explain that and maybe, at the same time, give us 
some examples of the practical application of your research and 
perhaps also of the kinds of materials we might be able to be 
using in the future that would be more advantageous than 
materials we have been using in the past without thinking about 
the issues?
    Mr. Golden. Certainly. So, Congressman, if we had a graph 
of the tremendous population increase in Maricopa County, 
Phoenix now being the fourth-largest city in the United States 
and the suburb of Mesa larger than most cities in the United 
States, we would track the same type of delta-T, the 
temperature difference between the urban and rural area.
    And while it is true that the temperature has gone up 7.6 
degrees Fahrenheit, if we look at the temperature difference 
between an unchanged--and it is very easy to do in Arizona at 
Casa Grande National Monument--in comparison to where Phoenix 
temperature recordings have been done, we are now almost 14 
degrees Fahrenheit warmer at night than our rural counterparts.
    And as we see the population increase, we see that 
temperature difference increase. Basically, we remove our 
native vegetation, whether it is cactus or trees or other 
grass, and we replace that with engineered materials--
buildings, concrete, asphalt. And those have a different 
thermodynamic process. In short, they are darker, they absorb 
the heat. And, high school physics, when you cover these 
buildings, you can't reradiate, long-wave radiation, so they 
don't cool off quickly. And so we have this urban heat island 
effect.
    So, for cities, there are quite a few things they could 
look at and we are looking at. If we were fortunate enough to 
fly in the Goodyear Blimp, we would look down at Phoenix and we 
would see about 40 percent, the largest component for most 
western State cities, is comprised of paved services--
driveways, parking lots, et cetera.
    The idea of incorporating smart water, wastewater issues, 
pervious concrete, pervious asphalt, on paved services that can 
retain the storm water and use it for beneficial reuse to 
sustain trees, which, as we know, are a lot cooler, can help 
mitigate the urban heat island effect, and also offset carbon 
emissions, as well, by sequestration.
    A new generation of surface treatments that can reflect 
while you still can have the same colors. There is a new 
generation of building materials. In certain climates, green 
roofs are appropriate. So there are quite a few things that can 
be done.
    I would mention that the U.S. EPA Heat Island Reduction 
Initiative does provide a clearinghouse for a lot of these 
initiatives.
    Mr. Shadegg. I noticed that you have been a consultant to 
our mayor, and our mayor and our local paper have talked a lot 
about the fact that we have cut down all the trees in the city 
of Phoenix and there are very few shaded areas. And if you 
don't have shade and you are outside in the summer in Arizona, 
you are in trouble.
    We passed legislation at the State legislative level to 
repaint the tops of all of our buses white. So we are thinking 
about this stuff a little bit, but we are thinking about it 
late. It seems to me it is something we have to incorporate 
into our thinking.
    It is pretty clear that the building materials we are using 
are retaining heat, and some of the concepts that you 
mentioned--they are not retaining water. I think there is a lot 
of progress we can make here to try to diminish the impact of 
urbanization upon the environment in which we leave and improve 
that environment dramatically.
    So I guess I am alone, and you will await our return.
    I am to declare that the select committee is in recess 
until the votes on the floor are concluded in about 20 minutes.
    Thank you.
    [Recess.]
    The Chairman. We welcome everybody back. And I think we 
will be able to reconvene for about 15, 20 minutes. We thank 
you so much for your attendance.
    Let me ask the panel, our televisions have been filled with 
weather-related disasters from the floods in Wisconsin down 
through Iowa and Missouri, the drought-fueled forest fires in 
California. As a Nation, we need to increase our resilience to 
these events, especially as global warming makes them more 
intense and frequent. To plan effectively for the future, it is 
essential that regional-scale information is available. Does 
that information exist today? Dr. Golden?
    Mr. Golden. Chairman, as I indicated in the oral testimony 
and what I submitted as written testimony, there is a variety 
of Federal agencies, NGOs and local and regional governments 
that do compile regional data that is imperative for a more 
refined understanding of what is occurring and what we will be 
able to predict in the future.
    What I also indicated, though, are two glaring issues, the 
first being that there is not a centralized mission agency that 
can take all of this data and be able to provide back to other 
agencies as well as local, regional and government a most 
refined understanding of what is occurring on the regional 
level.
    Secondly is someone who tries to understand what is 
occurring and what will occur in the future and provide that to 
local and regional governments. We rely heavily not only on 
local climate and meteorological stations but on remote 
sensing, that being satellite images; and, as I indicated, a 
variety of our satellites are due to expire. We do not have a 
dedicated urban system; and the refinements by that, the detail 
that is provided in these images is somewhat coarse right now 
and the technology provides for much greater refinement.
    The Chairman. Let me ask then other members of the panel 
who would like to respond, what roles should the Federal 
Government play in supporting and enhancing our understanding 
by planning for the regional impacts of global warming? Give us 
a recommendation for the Federal Government's role. Ms. Cooley.
    Ms. Cooley. Thank you, Chairman.
    One of the things that I would like to draw attention to is 
that there has been a substantial amount of cut in the funding 
for many of the monitoring programs. For example, for the USGS, 
many of the stream gauge stations have been shut down and that 
data is no longer being maintained. So increasing funding for 
those programs so that we can actually look at trends and see 
what is happening I think is critical.
    In addition, looking at projections, climate projections 
and then down-scaling them to local and regional levels so that 
water utilities can make use of that information and use that 
in their planning. In California, there is a very comprehensive 
effort to do that. At the State level, it is a program done by 
the California Energy Commission; and they have pulled together 
a team of researchers using the same climate models, the same 
emissions scenarios and are looking at impacts associated with 
that. So doing those types of activities regionally in other 
States I think it is critical.
    The Chairman. Thank you.
    Ms. Licata, you sought recognition.
    Ms. Licata. One of the reasons that we joined together with 
other metropolitan cities that are searching for good research 
with respect to climate change signs is exactly for the reason 
that we have many institutions sort of foraging out and working 
on these issues independently, and we feel that the Federal 
Government certainly has a role to provide us with unified 
research on this front. It is extremely important to water 
managers to have good data on precipitation and precipitation 
trends. So I echo, you know, the comments made earlier by the 
members of the panel, but it is extremely important for the 
Federal research to take on this role of looking at the 
questions that the water managers are asking and to have 
focused research on some of those ideas and questions and 
particularly with respect to precipitation, which is something 
that we are all struggling with at this point.
    The Chairman. And you are dependent upon the Federal 
Government for the information.
    Ms. Licata. We are dependent on the Federal Government as 
well as on the academic institutions.
    The Chairman. Well, that goes to you, Dr. Adegoke. You are 
an academic representative here on the panel.
    Mr. Adegoke. My view on this is that the Federal Government 
has an important role, a major role to play, but that role 
really is in enhancing capacity at the local level to--climate 
change and climate variability presents various levels of risks 
and vulnerabilities to various sectors. You think about 
agriculture, you think about whatever sector you pick up, you 
know, or even our city systems. If we look at our cities across 
the country, you know, we are vulnerable at various points and 
in various ways; and those vulnerabilities are best assessed at 
the local level. But what we do need, what we do need is an 
enabling environment in times of policy that provides the kind 
of support both in times of leadership and in times of funding 
to----
    The Chairman. Are you talking in terms of the National 
Weather Service receiving more funding that then could provide 
you with the more targeted information that you need on a 
regional basis in order to make these decisions? Tell us 
specifically how much money you think would be needed and which 
agency should get it and what are the responsibilities that we 
should give them in order to provide the regional information.
    Mr. Adegoke. Well, every agency that has a responsibility 
for some sector of the environment. So we are talking about--we 
are talking about NOAA, for instance, for weather. We are 
talking about--we are talking about USGS for--we are talking 
about all our national agencies that have a responsibility for 
managing our environment need significantly more funding, you 
know, to enhance observational capacity at the local level.
    The Chairman. So which agency, Dr. Adegoke, is the lead 
agency in your mind? Who would we put the coordinating 
responsibilities with to ensure that our package is then sent 
to a region? How would you construct that Federal Government 
responsibility so that it was coordinated there and it didn't 
come in from five different locations? Which agency should be 
the lead agency?
    Ms. Licata.
    Ms. Licata. There is the Climate Change Science Program, 
and that is currently the Federal organization that is supposed 
to centralize all of the activities of the agencies, and there 
are multiple amounts of agencies engaged in the climate change 
research and science. So that is the Climate Change Science 
Program, and I believe they are based out of NOAA. I believe it 
is out of NOAA. But its intended purpose is to coordinate among 
all of the Federal agencies working in this field.
    The Chairman. So you would make NOAA the lead agency?
    Ms. Licata. It seems as though there is already a seed 
organization within NOAA. So it would make sense to me.
    And because I do believe that the data and research 
regarding the weather trends, precipitation, the rain gauges is 
really very important, I would suggest that that would be the 
right way to proceed.
    The Chairman. Dr. Golden, do you think NOAA should be the 
lead agency?
    Mr. Golden. I think it depends on exactly what we are 
talking about. If I look in the arena of protecting human 
health and the environment, that itself is the mission 
statement of the U.S. EPA. And the U.S. EPA, as do other 
agencies--and I work with NOAA and CDC and EPA--also does 
coordinating. So I am not focusing just on them, but it would 
seem by their mission statement to----
    The Chairman [continuing]. Put it in EPA?
    Mr. Golden. Yeah.
    The Chairman. Let's have some other votes out there.
    Mr. Keppen, where would you put it?
    Mr. Keppen. Mr. Chairman, thanks.
    Going back to your first question, what can Congress do? 
What can the Federal Government do? I mentioned in my earlier 
testimony a bill that was introduced on the Senate side by 
Senator Bingaman and Senator Domenici called the Secure Water 
Act. It has got some great ideas in there about how to 
coordinate with all these various agencies, kind of bring them 
all together at one table.
    The Chairman. Who is the lead in that bill?
    Mr. Keppen. I can't recall. It might be the Interior 
Department Secretary or it might be the Commerce Department 
Secretary. I can't quite recall which one. But it does talk 
about bringing these various entities together that are dealing 
with climate change.
    The Chairman. What about Dr. Golden's idea, that it should 
be the EPA?
    Mr. Keppen. Well, there is merit there. I have to say I 
can't argue with what he is saying. I think just as long as all 
these parties have a fair say and there is some coordination 
going on so people know what other agencies are doing, I think 
that would be helpful.
    And I would also say that bill, the Secure Water Act, 
contains provisions that provide funding for additional 
monitoring and testing and more stream gauges and coordinating 
between entities in that way.
    The Chairman. Do you think NOAA, though--NOAA is inside of 
Commerce. Is NOAA really the best agency in your opinion on 
this, Dr. Keppen?
    Mr. Keppen. Well, it sure seems like they have a lot of 
expertise. I see they are a little bit less----
    The Chairman. When we have this hearing in 2 or 3 more 
years and there has been a complete mess and the Federal 
Government hasn't passed on the timely information to the 
regions about something that was anticipatable if it had been 
put together--well, who is sitting in Dr. Golden's seat? Who do 
you want sitting there? Do you want EPA? Do you want NOAA? Who 
do should we be yelling at, screaming at on that day?
    Mr. Keppen. So you are saying the agency that I dislike the 
most.
    The Chairman. They will be sitting here going, well, we 
handed it all over.
    Mr. Keppen. Does Fish and Wildlife fit into this?
    The Chairman. Who is putting it all together?
    Mr. Adegoke. I think what I can add to that is, several of 
the agencies in the last year or two alone, they have all 
articulated very strong climate change initiatives, whether it 
is the----
    The Chairman. If it is everybody's job, it is nobody's job.
    Mr. Adegoke. The lead agency in the U.S., the lead agency 
for climate change has to be NOAA.
    The Chairman. Has to be NOAA.
    Mr. Adegoke. It has to be NOAA in the U.S.
    The Chairman. Ms. Cooley, you have the final vote here.
    Ms. Cooley. Thank you.
    Well I think there is a difference, too. Are we just 
talking about monitoring and looking at what is projected under 
climate change? Or are we then looking at impacts? Because if 
we are talking about impacts, there is going to be a lot of 
different agencies that are involved in that. And I would agree 
with Ms. Licata that, you know, perhaps the climate research 
team would be a good place for that in terms of bringing all 
these agencies----
    The Chairman. Who is in charge of the climate research team 
right now, Ms. Cooley?
    Ms. Cooley. I do not know.
    The Chairman. Ah, see, that is not good.
    The thing is, we know the name of the Secretary of 
Commerce. He will be sitting where Dr. Golden is. We know the 
head of EPA will be sitting there. But we need somebody that we 
can actually say, we gave you the power. Right? So it has got 
to be something that has real accountability and people really 
feel, oh, this is important.
    We have a rising storm here in the community. So we have to 
do it in a way that not only has accountability but that you 
all know their name. You know? Of course. Like the equivalent 
of FEMA, right? That you know the name of the person, you know, 
in case there is a mess heading your way.
    That is after the fact, though, right? I am talking about 
before the fact here. And FEMA is now over in Homeland 
Security. But, in a way, this is homeland security as well. But 
we need to raise the accountability because it is reasonably 
anticipatable that there is going to be some really tragic 
events that occur.
    I see pretty much a split decision here. We are leaning 
towards NOAA, I would say.
    Dr. Adegoke, you mentioned taking a bottom-up vulnerability 
perspective and researching the impacts of climate change. Can 
you describe what is needed for this research and how the 
future scientific assessments such as the one recently released 
by the United States Climate Change Science Program should 
incorporate a bottom-up analysis?
    Mr. Adegoke. Yes. Thank you very much, Mr. Chairman.
    That assessment that you have just referred to is--it 
integrates the best of what we know currently. But it is still 
a translation, a down-scaling of the information that we have 
from general circulation models in terms of future predictions.
    I do climate modelling. I do climate research. I run a 
climate modelling laboratory. But I know that when you are 
looking at regional and local impacts, what we have, the 
projections and the down-scaled information that we get from 
these models do not sufficiently capture, okay, the 
understanding that we need to begin to address the question of 
risk and vulnerability.
    What we need, okay, is to take a sectoral approach. We have 
to do a sectoral approach. We have to look at specific sectors, 
look at water systems, say, for instance, in small communities. 
We will look at health across the spectrum. You know, we will 
look at agricultural systems, you know, and then do an 
assessment of risk for each of the sectors.
    So this, I think, connects back to your earlier question 
about who should be a lead agency. We do need a lead agency, 
yes, to give direction. Okay. But this work has--what I think 
we really need is a U.S. Government that is going to say, 
everything that we do as a government, everybody that we fund 
as a government needs to look at this question of how are we as 
a society vulnerable, where are our risks? Use some of the 
money that we are giving you. We are going to increase some of 
your funding to address this issue but address it at policy 
relevant scales. And that policy relevant scale I believe it 
would be at the local level.
    The Chairman. Okay. Thank you, Doctor, very much.
    Let me throw out this question. Many of you today have 
highlighted the amount of water consumed by our fossil fuel and 
nuclear energy sources.
    Mr. Keppen, in your testimony, I was struck by the 
statistics that, by 2030, utilities could account for up to 60 
percent of the nonfarm water consumed in the entire United 
States. That is a staggering amount of water just to be 
consumed by the fossil fuel and nuclear energy industries.
    Ms. Cooley, you testified that wind and photo-voltaic 
technologies require none to very little water for energy 
production. This connection between water use and energy 
production is one that is little understood by the public or 
even Members of Congress. How do the witnesses on our panel 
today suggest that, as Congress considers energy policy, we 
incorporate this water issue? Ms. Cooley.
    Ms. Cooley. Thank you, Chairman.
    One way to do that is to really integrate water and energy 
issues and planning so that if we are looking at water supply 
we also look at what the energy implications are of those water 
supply options.
    Another way would be through, as I testified, water 
conservation and efficiency, that that is an important way to 
not only reduce water use but to reduce energy use. And doing 
so is cost effective. So including measures that not only save 
water but saving energy. Perhaps setting Federal standards for 
clothes washers, for example. Both consume tremendous amount of 
water and energy, and some of the newer versions that are on 
the market reduce that use considerably.
    Also, when considering energy technologies, to look at what 
the water uses are and to consider whether that is an 
appropriate use of our water resources in the areas that they 
are being considered.
    The Chairman. But if 60 percent of the water that is non-
farmed is in the utility sector, does that not call for a solar 
and wind revolution in America? Is that basically what we need 
to have by 2030 in order to prevent this incredible consumption 
of water by a very narrow part of the total American economy?
    Ms. Cooley. Well, it does suggest some opportunities and 
some additional benefits that wind and solar can provide. So 
not only reducing our greenhouse gas emissions but reducing our 
vulnerability to water supply constraints.
    In my written testimony, I have provided a couple of 
newspaper headlines that talk about how water availability 
affects energy production and as we look into the future with 
an increased incidence of drought, as we know, that we are 
going to have constraints on both energy and water.
    The Chairman. So I think it was your testimony, Dr. Golden, 
that made a reference to the additional amount of electrical 
generating capacity we were going to need in the year 2030 in 
the United States to make up for the increased demand plus the 
retirement of older plants. Could you tell me again how much 
new electricity generation in megawatts do you think we need by 
2030?
    Mr. Golden. About 281,000 megawatts of new power generation 
capacity will be needed by 2025, which is equivalent to about 
950 new power plants at 300 megawatts.
    The Chairman. So 281,000 new megawatts of electricity by 
2025 will be needed in the United States. So if a high 
percentage of them are nuclear or coal, then we are going to 
see huge consumption of water. We will hit that 60 percent 
target for nonfarm water consumption in the utilities sector.
    Mr. Golden. Well, I would add one other factoid to this. As 
the USGS in their reports have indicated that it is not 
agriculture, it is not municipal water. In fact, thermal 
electric power is the largest use of water withdrawals, not 
consumption, water withdrawals in the United States; and that 
does not go without impacts to our environment and ecological 
systems as we heat the water, use the water through cooling 
towers and then send it back out.
    The Chairman. So what if we adopted a strategy? Let's just 
say, 281,000. Where did you get that number from in terms of 
the needed additional electricity?
    Mr. Golden. EIA, DOE.
    The Chairman. Okay. And let's just assume that is the 
worst-case scenario and the Department of Energy hasn't 
factored in increased efficiency in appliances and air 
conditioning and other devices, and we know for the first 6 
years of the Bush administration they missed all 35 deadlines. 
But let's assume that no President for the next 18 years meets 
any deadlines and we have the worst-case scenario, which I am 
assuming that that is what the Department of Energy must be 
talking about.
    This year, there is an estimation that 7,000 new megawatts 
of wind will be constructed in the United States. So if you go 
between now and 2018 and you are very conservative and it is 
just 7,000 new megawatts of wind per year and you multiply that 
by 18, that might come out to--that would be 126,000 megawatts 
of the needed 281 under your scenario, huh? Which would really 
put a dent in that big number.
    And if we made an assumption that solar, let's just say, 
was only producing 50,000 megawatts by then, then you might be 
up to 180,000 or so of the 280,000 megawatts that you need. In 
other words, a lot of this is avoidable if you move over to the 
renewable sources for electrical generation and--could you tell 
me, does gas-fired electrical plants consume as much water as 
coal-fired?
    Mr. Golden. No.
    The Chairman. No. Do you know what the factor is there in 
terms of the equation?
    Mr. Golden. No, not off the top of my head. I can get that 
back to you.
    The Chairman. It is substantially less, though, natural gas 
as opposed to coal.
    Mr. Golden. The new natural gas plants are actually dry 
natural gas plants. Many of the new natural gas plants are 
considered dry natural gas plants.
    The Chairman. Dry, dry natural gas. Is there such a thing 
for coal, dry coal?
    Mr. Golden. No.
    The Chairman. Ms. Cooley, do you know the answer to this 
question?
    Ms. Cooley. I also do not have those numbers off the top of 
my head, but I would be happy to send those numbers to you and 
your staff members.
    The Chairman. So if we put in place a program of moving to 
wind and solar, perhaps geothermal plus natural gas, we could 
probably drive down dramatically the amount of water by 2025 
that is being consumed in the electrical generating sector. Do 
you agree with that?
    Mr. Golden. I would. But I would caution one caveat. When 
we talk about electrical generation we need to think about base 
versus peak. So as an advocate of renewable energy, I concur 
with your statements. My only caution is that we need to ensure 
that this is a base load and we can also meet our peak.
    The Chairman. Well, a lot of people are saying that because 
of the high price now for oil that it is driving up the price 
of natural gas. And, as a result, we are discovering a lot more 
natural gas in the United States. So if we used the natural gas 
as the base load and then we built our wind and solar around it 
as planned, so that you still had the base load capacity and 
natural gas and whatever, you know, is the remainder of coal, 
is that a strategy for reducing water consumption while still 
maintaining the base load capacity?
    Mr. Golden. Yes.
    The Chairman. So we need a plan for America going forward 
towards 2025. Because what you have laid out here is pretty 
catastrophic in terms of the amount of water being consumed and 
what the impact then is on all the other needs that we have in 
our society.
    So at this point my time has been consumed. The gentleman 
from Oregon, Mr. Blumenauer, has arrived; and I will recognize 
him to ask questions.
    Mr. Blumenauer. Thank you very much, Mr. Chairman.
    And I must confess I am quite frustrated. I had two other 
committee meetings that kept me from this. But I have had a 
chance to review the testimony, and it is just really 
outstanding.
    The Chairman. Yeah. You have saved the best hearing for 
last, like the wedding feast at Cana. I appreciate it.
    Mr. Blumenauer. This is terrific stuff. And I am 
particularly interested--but time doesn't permit. We are being 
called to another vote. But I am hopeful that there would be a 
chance for us to explore with you in greater depth what the 
Federal Government can do in terms of promoting reasonable land 
use as a way to help reduce the impacts from flooding.
    And the Federal Government, part of something that has 
frustrated me for years, how hard it worked to get the most 
minimal reforms in the flood insurance program, where we kept 
putting people back in harm's way. I would particularly 
appreciate it if you would have a chance to review the 
legislation that is currently wending its way through dealing 
with flood insurance for a way that we might be able to tweak 
that for the Federal Government to do a better job to reduce 
that. And I think I have time, though, to maybe get an answer.
    Mr. Keppen, just dealing with issues that relate to the 
promotion of farm policies on the part of the Federal 
Government--we lost--sorry--policies that relate to the 
promotion--the things going forward we can do with Federal 
agricultural policy to try and take advantage of preserving key 
lands, using it to preserve and protect communities and be able 
to strengthen the agriculture. Even though we missed the boat 
with the Farm Bill, literally and figuratively, I wonder if you 
had other thoughts and observations about what we could and 
should be doing at this point.
    Mr. Keppen. Well, one of the--I guess you brought up an 
observation earlier about land use and how the government can 
work on that, and it sounds like your comments were targeted 
towards flood insurance.
    In the West, our watershed areas are almost all owned by 
the Federal Government; and they are in bad shape. I don't know 
if you have been to northern Colorado or southern Wyoming 
lately, but those watersheds are dying. The trees are dying. 
Even around where I live, Klamath Falls, we have got lots of 
areas where beetle kills, taken out trees----
    We have got to get back and get serious about watershed 
management, and that has benefits not just for timber and 
wildlife and economies but also flood control. Because most of 
your areas draining downstream start in Federal lands in the 
West.
    All I can say, as far as looking for ways to protect the 
farmland and that sort of thing, my organization--you know, we 
are even catching some heat for it, trying to get out and 
develop partnerships with conservation groups. We worked with 
conservation groups on the Farm Bill to try to come up with 
some programs that would help water supplies in rural areas. It 
is getting to the point right now where that is going to be the 
way of doing business just for farmers to survive.
    I talked to the president of my board, a Wyoming rancher, 
yesterday. He is spending $2,000 per vehicle per week on 
gasoline alone just getting around on his ranch; and he said he 
is going to go broke. He can't make it.
    So the economics are forcing agriculture I think to start 
to be a little bit more innovative and maybe creating 
partnerships with groups that we have been adversaries with in 
the past. So those are some of the things that we are working 
on.
    Mr. Blumenauer. Mr. Chairman, I would just leave as an 
open-ended request for suggestions about specific policies. It 
seems to me that we have a new transportation bill that is 
coming forward. We are going to be looking at energy. The cap 
and trade is going to be likely, no matter who is president, 
and being able to use a small portion of this resource to be 
able to help people to be able to cope with the disasters, 
particularly as it relates to water. Policies on Federal land 
itself that should be adjusted, flood insurance. So the sense 
of priority that you have for things that we are going to have 
walking through the Capitol over the course of the next 30 
months for specifics would be of great interest to me.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    We just have time to give 5 minutes to the gentleman from 
New York, and then we will have to adjourn.
    Mr. Hall. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    I will ask my questions primarily to Ms. Licata, since we 
are fortunate enough to have her here today.
    In the Northeast, we have the country's oldest wastewater 
infrastructure, which means that we are heavily reliant on CSOs 
and SSOs, which are already frequently overwhelmed. If we are 
looking at severe increases in participation, isn't it fair to 
assume that the pollution when these old systems overflow could 
lead to a serious regression as far as water quality standards 
are concerned?
    Ms. Licata. That is certainly a possibility; and, for that 
reason, we are starting to explore new strategies.
    The New York City system is 70 percent combined sewer 
overflows, and one of the opportunities that we may have is to 
start to look at more source control. So the way in which that 
we have dealt with the CSOs in the past has been to rid our 
city of storm water as quickly as possible and to send that to 
our water treatment plants and, when they are overwhelmed, to 
discharge the untreated but heavily diluted wastewater. Now 
what we are looking at is can we have--and do we have--
opportunities within public rights of way and on public land to 
do some type of storm water management?
    We are also looking very closely at what can you do on 
individual development lots? One of the strategies you have 
heard, I am sure, about our green roofs. But what the city of 
New York is currently looking at are what are known as blue 
roofs. And they are not really picturesque. It is really a tank 
on a roof, but what it does is it has the effect of detaining 
storm water.
    Mr. Hall. Thank you very much, and I compliment you on your 
work and the Mayor for his leadership in this regard.
    How can Congress help local communities best address this 
particular threat?
    Ms. Licata. One of the very significant challenges that New 
York has is really the age of its infrastructure system and 
what we need sorely is to build out the remainder of 
infrastructure. So we have these two problems: One, we have not 
kept pace with development pressures in the outer boroughs. So 
we have a lot of infrastructure that still has yet to be built. 
And, two, we really need to resize and rethink infrastructure 
that was built, say, in the early 1920s and before we saw major 
growth after World War II. So those are two major sources of 
funding that the city is lacking.
    Mr. Hall. Thank you.
    The city has a number of reservoirs and, of course, the 
aqueduct system which runs through my district and several 
reservoirs in my district and other upstate districts. In the 
19th District of New York we have had three 50-year floods in 
the last 5 years, some of the extreme weather events that the 
doctor and the rest of the panel have been talking about. And I 
am curious, in terms of the Delaware watershed, which has 
experienced, in particular, April 29th of last year, the 
nor'easter that flooded Port Jervis and other communities in 
Orange County and also my hometown of Dover Plains in Dutchess 
County, where the Ten Mile was flooding again for the third 50-
year time in a 5-year period. There has been talk about whether 
the New York City reservoir system could be used if we knew in 
advance that an extreme rain event was about to happen and 
whether there is a possibility of letting some water out in 
advance so that then it can be--some of the rain can be 
retained.
    I understand it is a complicated question, and it requires 
maybe better science than we have. But do you have any thoughts 
about those?
    Ms. Licata. It is a very complicated question to answer in 
a very short amount of time. But what I will say is that the 
Department has implemented a flexible flow management program, 
and what that allows us to do is to maintain a certain void 
within those reservoirs on the Delaware system. However, that 
void can only be maintained when we have a certain or a more 
certain probability of refill. So once we get past June 1, it 
is very difficult for us to maintain a void because we won't 
have the--well, at least by hindcasting, we won't have 
precipitation events that we can be certain of.
    So one of the other strategies that we can use is to look 
to make our Croton system more robust. We are bringing our 
filtration plans online there and to be able to develop 
aqueducts that will allow further interconnectivity between the 
Delaware system and the Catskill system. And these are all 
strategies that the Department is analyzing, but these are very 
long-term strategies.
    Mr. Hall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We have time for each of you to give us your concluding 20 
seconds. That is all you have.
    What do you want us to remember for the final 20 seconds, 
Ms. Cooley?
    Ms. Cooley. Thank you, Chairman. Thank you again for 
inviting me here today to speak.
    I think the things I would like you to remember today is 
that we are faced with challenges both from climate change as 
it is related to floods and droughts and from continued 
population growth. The good news is that we have a number of 
options available that are not only effective today but are 
effective in the future; and so I would encourage the 
government and the legislature to go ahead and move forward and 
pursue these options, including--and I will restate--smart 
flood plain management, developing alternative supplies----
    The Chairman. Twenty seconds. Thank you.
    Mr. Keppen.
    Mr. Keppen. I will say, in a nutshell, we are looking at 
competition for water in the West, limited supplies. Right now, 
agriculture is the default reservoir to meet a lot of these new 
demands. We need to be thinking about our ability as a country 
to be self-sufficient, and somehow that needs to find its way 
into the highest levels of the national policy.
    The Chairman. Twenty seconds. Thank you, Mr. Keppen.
    Dr. Golden.
    Mr. Golden. Our communities are at risk. We have a variety 
of Federal agencies that are doing great work, but we need 
leadership to bring that great work to bear back to the local 
and regional governments.
    The Chairman. Thank you. You did that in 9 seconds.
    Ms. Licata.
    Ms. Licata. We need to update floodplain maps within the 
city of New York. And, two, I believe we need Federal 
partnerships to go ahead about the business of down-scaling 
those global--I should say general circulation models into more 
regionally specific models.
    The Chairman. Floodplain maps in New York. It is like a 
movie, huh? It is like a preview of coming attractions.
    Dr. Adegoke.
    Mr. Adegoke. We need to strengthen the research capacity 
that we have in this country to begin to address the questions 
of risk and vulnerability that we are facing as a society.
    The Chairman. Thank you, Dr. Adegoke, very much.
    We have a roll call on the floor that will begin in a 
minute and 22 seconds. Mr. Hall and I would like to take a 
picture with you, and then the hearing is adjourned. Thank you.
    [Whereupon, at 3:26 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2525A.090
    
    [GRAPHIC] [TIFF OMITTED] T2525A.091
    
    [GRAPHIC] [TIFF OMITTED] T2525A.092
    
    [GRAPHIC] [TIFF OMITTED] T2525A.093
    
    [GRAPHIC] [TIFF OMITTED] T2525A.094
    
    [GRAPHIC] [TIFF OMITTED] T2525A.095
    
    [GRAPHIC] [TIFF OMITTED] T2525A.096
    
    [GRAPHIC] [TIFF OMITTED] T2525A.097
    
    [GRAPHIC] [TIFF OMITTED] T2525A.098
    
    [GRAPHIC] [TIFF OMITTED] T2525A.099
    
    [GRAPHIC] [TIFF OMITTED] T2525A.100
    
    [GRAPHIC] [TIFF OMITTED] T2525A.101
    
    [GRAPHIC] [TIFF OMITTED] T2525A.102
    
    [GRAPHIC] [TIFF OMITTED] T2525A.103
    
    [GRAPHIC] [TIFF OMITTED] T2525A.104
    
    [GRAPHIC] [TIFF OMITTED] T2525A.105
    
    [GRAPHIC] [TIFF OMITTED] T2525A.106
    
    [GRAPHIC] [TIFF OMITTED] T2525A.107
    
    [GRAPHIC] [TIFF OMITTED] T2525A.108
    
    [GRAPHIC] [TIFF OMITTED] T2525A.109
    
    [GRAPHIC] [TIFF OMITTED] T2525A.110
    
    [GRAPHIC] [TIFF OMITTED] T2525A.111
    
    [GRAPHIC] [TIFF OMITTED] T2525A.112
    
    [GRAPHIC] [TIFF OMITTED] T2525A.113
    
    [GRAPHIC] [TIFF OMITTED] T2525A.114
    
    [GRAPHIC] [TIFF OMITTED] T2525A.115
    
    [GRAPHIC] [TIFF OMITTED] T2525A.116
    
    [GRAPHIC] [TIFF OMITTED] T2525A.117
    
    [GRAPHIC] [TIFF OMITTED] T2525A.118
    
    [GRAPHIC] [TIFF OMITTED] T2525A.120
    
    [GRAPHIC] [TIFF OMITTED] T2525A.121
    
    [GRAPHIC] [TIFF OMITTED] T2525A.122
    
    [GRAPHIC] [TIFF OMITTED] T2525A.123
    
    [GRAPHIC] [TIFF OMITTED] T2525A.124
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
